App. 1
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FIVE
VALERIE HANEY,
Petitioner,
v.
THE SUPERIOR COURT
OF LOS ANGELES COUNTY,
Respondent.

B307452
(Super. Ct. No.
19STCV21210)
(Richard J. Burdge, Jr,
Judge)
ORDER

CHURCH OF SCIENTOLOGY (Filed Oct. 22, 2020)
INTERNATIONAL et al.,
Real Parties in Interest.
THE COURT:
The court has read and considered the petition for
writ of mandate filed September 10, 2020, the preliminary opposition filed September 21, 2020, the reply
filed October 1, 2020, and the amicus curiae briefs filed
by the National Center on Sexual Exploitation and the
National Crime Bar Victim Association. The petition is
denied as untimely. (Reynolds v. Los Angeles County
Superior Court (1883) 64 Cal. 372, 373; Volkswagen of
America, Inc.

App. 2
SCHEPER KIM & HARRIS LLP
WILLIAM H. FORMAN (State Bar No. 150477)
wforman@scheperkim.com
DAVID C. SCHEPER (State Bar No. 120174)
dscheper@scheperkim.com
MARGARET E. DAYTON (State Bar No. 274353)
pdayton@scheperkim.com
800 West Sixth Street, 18th Floor
Los Angeles, California 90017-2701
Telephone: (213) 613-4655
Facsimile: (213) 613-4656
Attorneys for Defendant,
Church of Scientology International
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES,
CENTRAL DISTRICT
VALERIE HANEY,
Plaintiff,
v.

CASE NO. 19STCV21210
Assigned to Hon.
Richard J. Burdge, Jr.,
Dept. 37

CHURCH OF SCIENTOLOGY NOTICE OF ORDER
INTERNATIONAL;
RELIGIOUS TECHNOLOGY
CENTER, and DAVID
MISCAVIGE; and
DOES 1-25,
Complaint Filed:
Defendants.
June 18, 2019

App. 3
TO ALL PARTIES AND THEIR COUNSEL OF
RECORD:
PLEASE TAKE NOTICE that on February 18,
2020, the Court made the attached Order (attachment
1), incorporating the Court’s Minute Order entered
January 31, 2020.
DATED: February 20, 2020
SCHEPER KIM & HARRIS LLP
WILLIAM H. FORMAN
DAVID C. SCHEPER
MARGARET E. DAYTON
By: /s/ William H. Forman
Attorneys for Defendants
Church of Scientology
International and Celebrity
Centre International

App. 4
ATTACHMENT 1
SCHEPER KIM & HARRIS LLP
WILLIAM H. FORMAN (State Bar No. 150477)
wforman@scheperkim.com
DAVID C. SCHEPER (State Bar No. 120174)
dscheper@scheperkim.com
MARGARET E. DAYTON (State Bar No. 274353)
pdayton@scheperkim.com
800 West Sixth Street, 18th Floor
Los Angeles, California 90017-2701
Telephone: (213) 613-4655
Facsimile: (213) 613-4656
Attorneys for Defendant,
Church of Scientology International
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES,
CENTRAL DISTRICT
VALERIE HANEY,

CASE NO. 19STCV21210
Assigned to Hon.
Plaintiff,
Richard J. Burdge, Jr.,
v.
Dept. 37
CHURCH OF SCIENTOLOGY [PROPOSED] ORDER
GRANTING MOTIONS
INTERNATIONAL;
RELIGIOUS TECHNOLOGY TO COMPEL RELIGIOUS ARBITRATION,
CENTER, and DAVID
STAYING ACTION,
MISCAVIGE; and
VACATING HEARING
DOES 1-25,
DATES, AND
Defendants.
SETTING STATUS
CONFERENCE
Complaint Filed:
June 18, 2019

App. 5
[PROPOSED] ORDER
On January 30, 2020 at 8:30 a.m., the Motions to
Compel Religious Arbitration (“Motions”) of Defendants Church of Scientology International (“CSI”) and
Religious Technology Center (“RTC”) came on for hearing in Department 37 of this Court. Bobby Thompson
of Thompson Law Offices appeared for Plaintiff Valerie
Haney (“Plaintiff ’). William Forman and Margaret
Dayton of Scheper Kim & Harris appeared for movant
and defendant CSI. Robert Mangels and Matthew
Hinks of Jeffer Mangels Butler & Mitchell appeared
for movant and defendant RTC.
After full consideration of the moving papers, opposition, and reply, as well as the arguments of counsel
and other papers on file, the Motions are GRANTED.
The Court adopts and incorporates herein its Minute
Order of January 30, 2020, attached hereto as Exhibit
A. Therefore, the Court ORDERS:
(1) The Motions to Compel Religious Arbitration
are granted, for the reasons stated in Exhibit A;
(2)

This matter is stayed in its entirety;

(3) All previously set dates are vacated, including the hearings on (a) Defendants’ Motions to Quash
Service of Summons and for Sanctions, (b) Defendants’
Motion to Stay Proceedings Pending Motion to Compel
Arbitration, (c) Defendant Religious Technology Center’s Special Motion to Strike under CCP Section
425.16, and (d) Applications to be Admitted Pro Hac
Vice filed by Plaintiff; and

App. 6
(4) A Status Conference is set for January 29,
2021 at 8:30 a.m. in Department 37 of the aboveentitled Court. The parties may return to this Court
before that date to move to conform any arbitration
award.
IT IS SO ORDERED.
DATED: February 18, 2020
/s/ Richard J. Burdge, Jr.
Hon. Richard J. Burdge, Jr.
Submitted by:
SCHEPER KIM & HARRIS LLP
WILLIAM H. FORMAN
DAVID C. SCHEPER
MARGARET E. DAYTON
/s/ William H. Forman
William H. Forman
Attorneys for Defendant Church
of Scientology International

App. 7
EXHIBIT A
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse,
Department 37
19STCV21210
JANE DOE vs CHURCH
OF SCIENTOLOGY
INTERNATIONAL, et al.

January 30, 2020
8:30 AM

Judge:
Honorable Richard J. Burdge Jr. CSR: Linda Lee #13568
Judicial Assistant: L. Garcia ERM: None
Courtroom Assistant: E. Avena Deputy Sheriff: None
APPEARANCES:
For Plaintiff(s): M. Stewart Ryan for Robert William
Thompson
For Defendant(s): William H. Forman and Peggy
Dayton; Matthew D. Hinks and Robert E. Mangels
NATURE OF PROCEEDINGS: Hearing on Motion
to Compel Arbitration; Hearing on Motion to Compel
Arbitration; Hearing on Ex Parte Application for an
Order Permitting Plaintiff to Conduct Discovery and
an Order Continuing the Hearing Date for Defendants’
Motion to Compel Arbitration
Pursuant to Government Code sections 68086, 70044,
and California Rules of Court, rule 2.956, Linda Lee,
CSR # 13568, certified shorthand reporter is appointed
as an official Court reporter pro tempore in these

App. 8
proceedings, and is ordered to comply with the terms
of the Court Reporter Agreement. The Order is signed
and filed this date.
The Court reviews Plaintiffs Ex Parte Application for
an Order Permitting Plaintiff to Conduct Discovery
and an Order Continuing the Hearing Date for Defendants’ Motion to Compel in Arbitration in chambers and
rules as follows:
The Plaintiffs Ex Parte Application Plaintiffs Ex Parte
Application for an Order Permitting Plaintiff to Conduct Discovery and an Order Continuing the Hearing
Date for Defendants’ Motion to Compel Arbitration
filed by Valerie Haney on is Denied.
There is no showing of irreparable harm for the Ex
Parte Application. Further, there is no showing why
this matter is brought before the Court on the day of
the hearing, when the petition has been pending for
months. The Court also finds there is no showing that
the discovery is necessary.
Moving party to give notice.
The court’s tentative ruling is posted in open court for
parties to review.
The matters are called for hearing and argued. After
argument, the Court adopts its tentative ruling as the
final order of the Court as follows:
Moving Defendants’ petitions to compel arbitration are
GRANTED. The action is stayed pending the completion of arbitration.

App. 9
Background
This action arises out of Plaintiff, Valerie Haney
(“Plaintiff ”)’s former tenure as a member of the Church
of Scientology International (“CSI”). Plaintiff also brings
this action against Religious Technology Center (“RTC”)
and David Miscavige (“Miscavige”), who is alleged to
be the “Chairman of the Board” and leader of “The
Church of Scientology.” (together, “Defendants.”)
Further, Plaintiff alleges that she served as staff for
the Sea Organization or “Sea Org,” which is one of
the suborganizations of CSI and RTC. The operative
First Amended Complaint (“FAC”) contains extensive
allegations regarding the Sea Org’s allegedly improper
and/or illegal practices, including allegations detailing
trafficking of children within the Sea Org, how the Sea
Org subjects former members to a “routing out” process, and how the Defendants subject members and
former members to other alleged coercion and control
tactics.
As for her own experience, the FAC further alleges that
Plaintiff was born into Scientology in 1979 and was
first a member of the “Cadet Org,” a subdivision of the
Sea Org for the children of Scientology’s most dedicated members. As a “Cadet Org” member, Plaintiff alleges that she was subject to “auditing,” which is an
alleged indoctrination procedure, as well as “bullbaiting,” which is an alleged technique designed to train
children not to react to harassment or other inappropriate comments. Plaintiff alleges that as she grew
up in Scientology, she eventually became a victim of

App. 10
human trafficking such that she was lured into joining
the Sea Org and moving to “Gold Base,” located at
19721 Gilman Spring Road, San Jacinto, California,
where she began being subjected to involuntary servitude in service of the Sea Org. During her time at “Gold
Base,” Plaintiff alleges that she eventually became
Miscavige’s “steward.” Due to Plaintiff ’s duties, she alleges she was increasingly further restricted from leaving “Gold Base.”
The FAC further alleges that sometime in November
2016, Plaintiff had been assigned to film promotional
videos for Scientology and learned that the promotional
videos would be moved off “Gold Base.” As such, Plaintiff alleges she escaped “Gold Base.” Despite allegedly
leaving as of November 2016, the FAC alleges that
Plaintiff was encouraged by her Scientology father to
return and appropriately withdraw from Scientology
through “routing out.” However, the FAC alleges that
returning to Scientology allegedly subjected Plaintiff
to further threats, including being forced to falsely
depict her experience within Scientology. The FAC
alleges that Plaintiff again eventually escaped as of
2017.
After Plaintiff alleged left Scientology, the FAC alleges
that Defendants continued to subject her to a “Fair
Game campaign.” Specifically, Plaintiff alleges that she
was featured on an episode of a television program in
November 2018 called “Leah Remini: Scientology and
the Aftermath” (the “Aftermath,”), in which she discussed her life prior to leaving Scientology and her ultimate departure. The FAC alleges that in response to

App. 11
the television appearance, Defendants published a
website that made allegedly false, defamatory and inflammatory statements about Plaintiff and other persons featured on the show.
The operative FAC alleges ten causes of action against
Defendants: (1) intentional misrepresentation, (2) concealment, (3) false promise, (4) false imprisonment, (5)
kidnapping, (6) stalking in violation of California Civil
Code § 1708.7, (7) libel in violation of California Civil
Code § 45, (8) slander in violation of California Civil
Code § 46, (9) constructive invasion of privacy in violation of California Civil Code § 1708.8, (10) intentional
infliction of emotional distress.
Defendants CSI and RTC (“Moving Defendants”) now
move to compel Plaintiff to submit to “religious arbitration” pursuant to multiple agreements she signed
upon joining the Sea Org. RTC also separately joins in
CSI’s motion to compel arbitration. Plaintiff opposes
the motions.
Because CSI and RTC’s motions and joinder to motion
to compel arbitration are all based on the same agreements signed by Plaintiff, the court will discuss both
motions together except where appropriate to treat
them separately.
CSI’s Objections to Plaintiff ’s Evidence on Reply
Overruled: 3-5, 7-14, 16
Sustained: 1, 15,
Objection 2: sustained as to “brainwashed.” Otherwise
overruled.

App. 12
Objection 6: sustained as to “escape,” “laborious and
back-breaking work.” Otherwise overruled
Plaintiff ’s Objections to Late Filed Evidence
Overruled.
Discussion
I.

Legal Standard

“California law reflects a strong public policy in favor
of arbitration as a relatively quick and inexpensive
method for resolving disputes. To further that policy,
Code of Civil Procedure, section 1281.2 requires a trial
court to enforce a written arbitration agreement unless one of three limited exceptions applies. Those statutory exceptions arise where (1) a party waives the
right to arbitration; (2) grounds exist for revoking the
arbitration agreement; and (3) pending litigation with
a third party creates the possibility of conflicting rulings on common factual or legal issues.” (Code of Civ.
Proc., § 1281.2; Acquire II, Ltd. v. Colton Real Estate
Group (2013) 213 Cal.App.4th 959, 967.) Similarly,
public policy under federal law favors arbitration and
the fundamental principle that arbitration is a matter
of contract and that courts must place arbitration
agreements on an equal footing with other contracts
and enforce them according to their terms. (AT&T Mobility LLC v. Concepcion (2011) 563 U.S. 333, 339.)
In deciding a motion or petition to compel arbitration,
trial courts must first decide whether an enforceable
arbitration agreement exists between the parties and
then determine whether the claims are covered within

App. 13
the scope of the agreement. (Omar v. Ralphs Grocery
Co. (2004) 118 Cal.App.4th 955, 961.) The opposing
party has the burden to establish any defense to enforcement. (Gatton v. T-Mobile USA, Inc. (2007) 152
Cal.App.4th 571, 579 [“The petitioner . . . bears the
burden of proving the existence of a valid arbitration
agreement and the opposing party, plaintiffs here,
bears the burden of proving any fact necessary to its
defense.”].)
II. Existence of an Arbitration Agreement
A. Language of Applicable Arbitration Provisions
Moving Defendants submit the declaration of Lynn R.
Farny (“Farny”) to demonstrate that Plaintiff signed
valid arbitration agreements which cover all claims in
the FAC. Farny attests that CSI’s exclusive purpose is
to “oversee the ministry of religious services and training to Scientology parishioners” and to “minister religious services.” (Farny Decl. in support of CSI Motion
¶ 6.) Further, Farny attests that CSI was recognized as
a church within the meaning of 26 U.S.C. § 170(c) as of
1993. (Id. ¶ 7.) Farny also attests that the Sea Org,
which Plaintiff was a member of, is “analogous to
[membership] of religious orders in other religions.”
(Farny Decl. in support of RTC motion, ¶ 11.) According to Farny, a Sea Org member may undergo “routing
out” in order to withdraw but remain a Scientologist in
good standing or leave without “routing out” but possibly be subject to being labeled “suppressive,” which is

App. 14
“akin to being excommunicated or shunned from the
religion.” (Id. ¶ 12.)
According to Farny, Plaintiff signed Staff Covenant
agreements and Religious Services Enrollment Applications, both of which affirm her dedication to Scientology and agreement to resolve disputes within
Scientology. (Farny Decl. in support of CSI Motion, Exhibits 7-10.) First, on September 10, 2010, Plaintiff
signed a “Religious Services Enrollment Application,
Agreement and General Release,” which provides in
pertinent part:
“Should I or anyone acting or purporting to be acting
on my behalf ever sue, or otherwise seek legal recourse
with respect to any dispute, claim or controversy
against the Church, any other Scientology church, any
other organization which espouses, presents, propagates or practices the Scientology religion, or any person employed by any such entity, regardless of the
nature of the dispute, claim or controversy, I intend or
[sic] the submission of this Contract to the presiding
judicial officer to be a complete and sufficient basis for
the immediate dismissal of any and all such proceedings with prejudice to further proceedings of any kind.
In accordance with the discipline, faith, internal organization, and ecclesiastical rule, custom, and law of
the Scientology religion, and in accordance with the
constitutional prohibitions which forbid governmental
interference with religious services or dispute resolution procedures, should any dispute, claim or controversy arise between me and the Church, any other

App. 15
Scientology church, any other organization which espouses, presents, propagates or practices the Scientology religion, or any person employed by any such
entity, which cannot be resolved informally by direct
communication, I will pursue resolution of that dispute, claim or controversy solely and exclusively through
Scientology’s internal Ethics, Justice and binding
religious arbitration procedures, which include application to senior ecclesiastical bodies, including, as
necessary, final submission of the dispute to the International Justice Chief of the Mother Church of the Scientology religion, Church of Scientology International
(“IJC”) or his or her designee.” (Farny Decl. in support
of CSI Motion, Exhibit 7.)
Further, Plaintiff also signed a “Declaration of Religious commitment and Membership in the Sea Organization” on September 10, 2010, which includes the
following language:
GENERAL RELEASE
(Read Carefully)
AS A MATTER OF RELIGIOUS PRINCIPLE, SCIENTOLOGISTS AGREE THAT THEY WILL RESOLVE
ALL DISPUTES THROUGH THE ECCLESIASTICAL
JUSTICE PROCEDURES OF THE CHURCH WHICH
PROCEDURES SEEK FAIR AND JUST SOLUTIONS
TO ALL VALID CLAIMS.
(Farny Decl. in support of CSI Motion, Exhibit 8.)
In 2013, Plaintiff signed further agreements with CSI,
all of which again included language indicating that she
agreed to submit any disputes to Moving Defendants’

App. 16
internal dispute resolution procedure. Specifically, this
included a “Religious Services Enrollment Application,
Agreement and General Release (Staff ),” which provided in pertinent part:
“In the unlikely event that there should arise any
dispute between me and the Church, any other Scientology church or related organization or any person
serving as an officer, director, trustee or staff member
of any such entity concerning my participation, in the
past, the present or the future, in any Scientology Religious Service or with respect to the discipline, faith,
internal organization and/or rules of Scientology, I
RECOGNIZE UNDERSTAND AND AGREE THAT
ANY SUCH DISPUTE BY ITS VERY NATURE IS A
MATTER OF RELIGIOUS DOCTRINE, WHICH
THEREFORE WILL AND MUST BE RESOLVED
SOLELY AND EXCLUSIVELY BY THE ECCLESIASTICAL AUTHORITIES AND RELIGIOUS PROCEDURES OF SCIENTOLOGY.”
(Farny Decl. in support of CSI Motion, Exhibit 9.)
Further, Plaintiff signed a “Church of Scientology International Staff Commitment and General Release”
agreement in 2013, which also provided that she would
agree to resolve any disputes first through “direct communication,” or, if it was not successful, through “Scientology Internal Ethics, Justice and religious arbitration
procedures exclusively.” (Farny Decl. in support of CSI
Motion, Exhibit 11.) This agreement also indicated
that she agreed to participate in further arbitration as

App. 17
an “exclusive remedies,” excluding any remedies available in a “secular court of law.” (Id.)
Finally, Moving Defendants also submit the declaration of Gary Soter (“Soter”) to demonstrate that Plaintiff signed a final “Staff Departure Agreement” in 2017,
which again reaffirmed her intent to submit her disputes with Moving Defendants to arbitration. Soter
attests that on February 13, 2017, he interviewed
plaintiff regarding her departure from Scientology.
(Soter Decl. in support of CSI motion, ¶ 4.) According
to Soter, Plaintiff acknowledged during their conversation that she intended to submit any disputes with
Moving Defendants to the church’s ecclesiastical justice system, and “that means no court case.” (Id. ¶ 7.)
Soter further attests that Plaintiff expressed understanding of the entire Staff Departure Agreement, and
that her questions were answered to her “complete satisfaction.” (Id. ¶ 10.) According to the Staff Departure
Agreement, at paragraph 8, Plaintiff agreed to the following language:
I recognize that any problem or other dispute that I
now or ever may have concerning my experiences as a
member of the Sea Org or as a voluntary religious
worker for the Church or any Scientology Entity, or
concerning my participation in Scientology’s religious
services, or concerning any matter of church governance, organization, practices, policies or discipline, necessarily raise as Scientology religious issue that can be
resolved only through the application of Scientology
doctrine by the appropriate scientology ecclesiastical
authorities. I therefore recognize and agree that I

App. 18
cannot and will not sue in civil courts or seek a jury
trial in connection with any such dispute.”
(Soter Decl. in support of CSI Motion, Exhibit 2.)
Plaintiff ’s opposition does not dispute the meaning
and scope of these agreements as written or that her
claims come within the scope of the arbitration agreements. In her declaration, she does not state she did
not sign any of the agreements. Instead, Plaintiff contends that the arbitration agreements are not enforceable because of “excessive scope, unconscionability,
undue influence and duress.” (Opposition, 4.)
Plaintiff also contends that she should not be required
to arbitrate with RTC, as it is a non-signatory to the
above agreements. (Opposition, 13-15.) Plaintiff contends that because RTC and Miscavige are not signatories to the various agreements, the court should
exercise its discretion under Code of Civil Procedure
section 1281.2 (c) not to compel arbitration of the entire action or to stay any arbitration pending resolution of the state action. (Id.)
RTC submits the declaration of Warren McShane
(“McShane”) to demonstrate that Plaintiffs various
signed agreements should apply to RTC. McShane attests that he is the President of RTC and custodian of
the RTC records. (McShane Decl. in support of RTC
Motion, ¶ 5.) McShane attests that RTC is a Church of
Scientology, and that the “central role and function of
RTC is to ensure the orthodoxy of the Scientology religion.” (McShane Decl. ¶ 5.)

App. 19
Based on the evidence before the court, the court finds
that multiple arbitration agreements or clauses in agreements exist between Moving Defendants and Plaintiff
and were signed by Plaintiff. In addition, each agreement or provision clearly indicates that it extends to
CSI, or any other Church of Scientology, or any employees or officers. McShane has attested on behalf of RTC
that it is a Church of Scientology and Miscavige is alleged to be an office of CSI. As such, each of the various
agreements apply to RTC and Miscavige.
The court will now turn to analysis of whether the
agreements and/or provisions are unenforceable as
Plaintiff contends. Plaintiffs opposition and supporting
declaration, contend that the agreements she signed
are both substantively unconscionable due to their
breadth and procedurally unconscionable due to the
undue influence, duress and/or coercion that Moving
Defendants exerted on her at the time she signed the
agreements.
B.

Substantive Unconscionability

Plaintiff contends that “the strikingly broad scope of
the arbitration agreement” is precisely what makes
each arbitration agreement or provision unenforceable. (Opposition, 12-13.) Plaintiff relies on a federal district court case interpreting the Federal Arbitration
Act (“FAA”), In re Jiffy Lube Int’l, Inc. (2012) 847
F.Supp.2d 1253, 1262-63 (Jiffy Lube), for the proposition that arbitration agreements unlimited in scope
are by definition unconscionable.

App. 20
In Jiffy Lube, Plaintiffs filed an action alleging that
Defendants subjected them to text message advertising in violation of the Telephone Consumer Protection
Act. (“TCPA”) (Id. at 1255.) Defendants responded in
part with a motion to compel arbitration of Plaintiffs’
claims. (Id. at 1261.) In deciding that the underlying
agreement at issue in that action was invalid, the Jiffy
Lube court found the agreement “incredibly broad.” (Id.
at 1262-1263.) Further, the Jiffy Lube court pointed to
a decision of Judge Posner, who noted that if there were
“no limiting clause in the arbitration agreement at issue . . . such that if a defendant murdered the plaintiff
in order to discourage default on a loan, the wrongful
death claim would have to be arbitrated.” (Id.)
This declines to adopt the reasoning in Jiffy Lube.
While the arbitration agreements are broad, they are
intended to be so to protect the religious doctrines of
the Defendants and for them to be able to address challenges to their practices within religious, rather than
secular legal structures. This context is simply different from the one addressed in Jiffy Lube.
C.

Procedural Unconscionability

Plaintiff contends that the agreements are unenforceable due to Moving Defendants’ undue influence over
her and due to the fact that she signed them under coercion and duress. (Opposition, 9-12.)
Plaintiff submits her own declaration in support of her
contention that any agreements or provisions signed
with the Moving Defendants should be considered

App. 21
unenforceable due to undue influence, duress and coercion. Plaintiff attests that she was born to Scientologist parents and was “raised to believe that I only had
rights that were afforded to me by Scientology.” (Plaintiff Decl. ¶ 4.) Further, Plaintiff attests that was made
to “sign over” rights to Scientology “or else it would
be a sin against the Church.” (Id.) Plaintiff contends
she was “brainwashed” by Scientology such that she
did not understand or appreciate her rights. (Plaintiff
Decl. ¶ 5.) Further, Plaintiff contends that for each and
every document she signed, an “official” would summarize the contents of the documents “in their own words”
and she would be required to sign as the official stood
over her. (Plaintiff Decl. ¶ 7.) If Plaintiff “took too long”
or attempted to read the documents, she would be told
“are you done yet, just sign it.” (Id.) Further, Plaintiff
contends she was always told it was “not possible” to
take the documents home to review. (Id.)
Plaintiff further attests that when she joined the Sea
Org and moved to Gold Base, she was “verbally, physically, and psychologically restricted from leaving the
Gold Base. (Plaintiff Decl. ¶ 9.) Beginning 2016, Plaintiff attests she submitted seven requests to leave the
Sea Org, and that all were denied, including on one occasion where she was physically restrained from leaving. (Plaintiff Decl. ¶ 12.) After Plaintiff left in 2016
and was then encouraged to return to formally withdraw, Plaintiff alleges she was subject to a “handler,”
who allegedly followed her to the bathroom and in the
shower. (Plaintiff Decl. ¶ 13.) Plaintiff also contends
that the videotaped interviews she underwent were

App. 22
“videotaped interrogations,” in which she was forced to
make “False confessions” about herself and provide
“false positive testimonials” about Scientology. (Id.)
Further, Plaintiff contends that the Departure Agreement specifically was signed in a room including a
“man armed with a gun,” and that she “signed any document that was given” “because I just wanted to it to
be over and to get out of there.” (Plaintiff Decl. ¶¶ 1415.)
Plaintiff also cites to various cases for the proposition
that the circumstances described in her declaration fit
the requirement for invalidating agreements entered
into under undue influence, coercion or duress. The
court has reviewed these cases and finds Odorizzi v.
Bloomfield School District (1966) 246 Cal.App.2d 123
(Odorizzi) instructive.
In Odorizzi, the court of appeal found that a school
teacher who contends he signed a resignation under
undue influence and/or duress was entitled to rescind
his resignation. (Id. at 135.) In coming to this conclusion, the Court of Appeal found that there were seven
characteristics which “tend to create a pattern” of undue influence: “(1) discussion of the transaction at an
unusual or inappropriate time, (2) consummation of
the transaction in an unusual place, (3) insistent demand that the business be finished at once, (4) extreme
emphasis on untoward consequences of delay, (5) the
use of multiple persuaders by the dominant side
against a single servient party, (6) absence of thirdparty advisers to the servient party, (7) statements
that there is no time to consult financial advisers or

App. 23
attorneys.” (Id. at 133.) The Court of Appeal found
that the school teacher sufficiently alleged that his
resignation was procured under undue influence in
part because he alleges he was required to sign the
resignation while under severe and emotional strain
after being arrested, questioned, booked and then released through forty hours without sleep. (Id. at 131-132.)
However, the Court of Appeal found that no duress
or menace was sufficiently alleged, as “the action or
threat in duress or menace must be unlawful.” (Id. at
128.)
In support of its motion, Defendants submit the declarations of Lynn Farny, Catherine Fraser, and Gary
Soler, which attest to Plaintiff ’s participation in growing areas of responsibility within the church. She held
various position of growing importance over the many
years. (Farney Decl. ¶¶ 36-38.) She was a member of
the Sea Org, which included the most dedicated Scientologists. (¶ 27.) She served as an “Ethics Officer”
where she “read, was tested on, and implemented the
Scientology justice materials.” (¶ 37.) Despite Plaintiff ’s allegations of brainwashing as a child, she admits
her agreements were all signed after she was 30.
(Plaintiff ’s Decl. ¶¶ 10, 11; Exhs. 2, 7-11 filed in support of the motion.) Ms. Fraser attested that Plaintiff
travelled with location shoot teams all over Southern
California (¶ 23), she had a car and a phone and would
be totally on her own at times (¶ 24), was in a loving
marriage (¶ 25, served as a host for social affairs with
the non-Scientology community (¶ 28), and vacationed

App. 24
in Oregon, Florida and Nevada and returned to Sea
Org (¶ 29). She did not challenge those statements.
CSI contends that Plaintiff has not shown that she
signed any of the agreements under undue influence,
duress or coercion. (Reply, 13-15.) CSI contends that
Plaintiff ’s contentions about having to sign the agreements while an “official” was watching and having the
language summarized to her merely constitute generalized allegations of “take-it-or-leave-it” agreements,
which are conclusory and not sufficient to constitute a
showing that the agreements were procured by undue
influence, duress or coercion. (Id.) Further, CSI contends that with respect to the Departure Agreement,
Plaintiff ’s assertion that it was witnessed by a “man
with a gun” is a fabrication and is contravened by the
Soter Declaration in support of both motions in which
Soter repeatedly affirms that Plaintiff told him she
was not coerced to sign the Departure Agreement and
was freely agreeing to do so in the course of her “routing out” process. (Id.)
The court finds that Plaintiff has failed to sufficiently
demonstrate procedural unconscionability for purposes of invalidating any of the agreements she signed
which compel her to arbitrate. Here, Plaintiff ’s Declaration is conclusory and lacks sufficient factual statements to refute Defendants’ showing. Her declaration
demonstrates that she contends generally that the
agreements she signed prior to the Departure Agreement were signed only because she was forced to do so,
as they were “take-it-or-leave-it” agreements. However,
mere statements that a party to an agreement was

App. 25
“coerced” to sign the agreement is insufficient to constitute proof that the party was in fact coerced to do so.
(Robinson v. City of Manteca (2000) 78 Cal.App.4th
452, 458.) While Plaintiff does specifically attest that a
“man with a gun” observed her sign the Departure
Agreement, which, if true, may be circumstantial evidence that the Departure Agreement was entered into
due to duress or coercion, but she does not explain
what this man did to coerce her to sign. Also, it does
nothing to show that the earlier agreements were entered into due to duress or coercion. The Departure
Agreement does not contain language indicating that
it was to supersede any of the prior agreements Plaintiff signed with Moving Defendants. Moreover, the
transcript of her signing the Departure Agreement
contradicts her declaration. Finally, many of her allegations regarding “brainwashing” and coercion involve
the substance of her dispute over the Scientology practices that are part of its religious doctrine. Those are
substantive questions that go to the merits of Plaintiffs
claims that should be resolved by the arbitrator. (See,
e.g., Henry Schein, Inc. v. Archer & White Sales, Inc.
(2019) 586 U.S. ___, 139 S.Ct 524.)
D. Ministerial Exception
CSI and RTC also contend that Plaintiff ’s various
signed agreements should be deemed enforceable under the ministerial exception. However, having found
that Plaintiff entered into enforceable arbitration
agreements which encompass her claims against Defendants that warrant granting the motion, the court

App. 26
does not address the remaining arguments in the moving and opposing papers regarding the ministerial exception.
III. Conclusion
Moving Defendants’ petitions to compel arbitration are
GRANTED. The action is stayed pending the completion of arbitration.
1 Each Defendant moves to compel arbitration in its
own capacity. Further, Defendant Religious Technology Center joins in Defendant Church of Scientology
International’s motion to compel arbitration.
2 The Complaint is styled as brought by “Jane Doe”
in the interest of Plaintiff ’s anonymity. However, the
Court notes that the First Amended Complaint identifies Plaintiff by name as Valerie Haney.
The Court hereby stays the case in its entirety. On the
Court’s own motion, the Hearing on Motion to Quash
Service of Summons, for Sanctions; scheduled for
04/09/2020, Hearing on Motion to Quash Service of
Summons scheduled for 04/09/2020, Hearing on Motion – Other Motion to Stay Proceedings Pending Motions to Compel Arbitration scheduled for 08/13/2020,
Hearing on Motion to Compel Arbitration scheduled
for 01/30/2020, Hearing on Special Motion to Strike
under CCP Section 425.16 (Anti-SLAPP motion)
scheduled for 02/13/2020, and Hearing on Motion to be
Admitted Pro Hac Vice scheduled for 04/09/2020 are
vacated.

App. 27
Post-Arbitration Status Conference is scheduled for
01/29/2021 at 08:30 AM in Department 37 at Stanley
Mosk Courthouse.
Defendant is to give notice and prepare order.

PROOF OF SERVICE
Jane Doe (Valerie Haney) v.
Church of Scientology, et al.
LASC Case No. 19STCV21210
STATE OF CALIFORNIA, COUNTY OF LOS ANGELES
At the time of service, I was over 18 years of age
and not a party to this action. I am employed in the
County of Los Angeles, State of California. My business address is 800 West Sixth Street, 18th Floor, Los
Angeles, CA 90017-2701.
On January 31, 2020, I served true copies of the
following document(s) described as [PROPOSED]
ORDER GRANTING MOTIONS TO COMPEL
RELIGIOUS ARBITRATION, STAYING ACTION,
VACATING HEARING DATES, AND SETTING
STATUS CONFERENCE on the interested parties in
this action as follows:
SEE ATTACHED SERVICE LIST
BY OVERNIGHT DELIVERY: I enclosed said
document(s) in an envelope or package provided by the
overnight service carrier and addressed to the persons

App. 28
at the addresses listed in the Service List. 1 placed
the envelope or package for collection and overnight
delivery at an office or a regularly utilized drop box of
the overnight service carrier or delivered such document(s) to a courier or driver authorized by the overnight service carrier to receive documents.
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct.
Executed on January 31, 2020, at Los Angeles,
California.
/s/ Connie Gonzalez
Connie Gonzalez

SERVICE LIST
Jane Doe (Valerie Haney) v.
Church of Scientology, et al.
LASC Case No. 19STCV21210
Robert W. Thompson
Attorneys for Plaintiff
Kristen A. Vierhaus
VALERIE HANEY
THOMPSON LAW OFFICES
700 Airport Boulevard,
Suite 160
Burlingame, CA 94010
Telephone: 650-513-6111
Facsimile: 650-513-6071
Emails: bobby@tlopc.com
kris@tlopc.com

App. 29
Robert E. Mangels
Attorneys for Defendant
Matthew D. Hinks
RELIGIOUS
Iman G. Wilson
TECHNOLOGY CENTER
JEFFER MANGELS
BUTLER & MITCHELL LLP
1900 Avenue of the Stars,
7th Floor
Los Angeles, California 90067-4308
Telephone: 310-203-8080
Facsimile: 310-203-0567
Emails: rmangels@jmbm.com
mhinks@jmbm.com
iwilson@jmbm.com
Jeffrey K. Rifler
Attorneys for SpeciallyELKINS KALT
Appearing Defendant
WEINTRAUB REUBEN DAVID MISCAVIGE
GARTSIDE LLP
10345 West Olympic Boulevard
Los Angeles, CA 90064
Telephone: 310-746-4400
Facsimile: 310-746-4499
Email: irifferaelkinskalt.com

PROOF OF SERVICE
Jane Doe (Valerie Haney) v.
Church of Scientology, et al.
LASC Case No. 19STCV21210
STATE OF CALIFORNIA, COUNTY OF LOS ANGELES
At the time of service, I was over 18 years of age
and not a party to this action. I am employed in the

App. 30
County of Los Angeles, State of California. My business address is 800 West Sixth Street, 18th Floor, Los
Angeles, CA 90017-2701.
On February 20, 2020, I served true copies of the
following document(s) described as NOTICE OF ORDER on the interested parties in this action as follows:
SEE ATTACHED SERVICE LIST
BY MAIL: I enclosed the document(s) in a sealed
envelope or package addressed to the persons at the
addresses listed in the Service List and placed the
envelope for collection and mailing, following our ordinary business practices. I am readily familiar with
the practice of Scheper Kim & Harris LLP for collecting and processing correspondence for mailing. On the
same day that correspondence is placed for collection
and mailing, it is deposited in the ordinary course of
business with the United States Postal Service, in a
sealed envelope with postage fully prepaid.
BY ELECTRONIC SERVICE: I served the
document(s) on the person listed in the Service List
by submitting an electronic version of the document(s)
to One Legal, LLC, through the user interface at
www.onelegal.com.
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct.

App. 31
Executed on February 20, 2020, at Los Angeles,
California.
/s/ Connie Gonzalez
Connie Gonzalez

SERVICE LIST
Jane Doe (Valerie Haney) v.
Church of Scientology, et al.
LASC Case No. 19STCV21210
Robert W. Thompson
Attorneys for Plaintiff
Kristen A. Vierhaus
VALERIE HANEY
THOMPSON LAW OFFICES
700 Airport Boulevard,
Suite 160
Burlingame, CA 94010
Telephone: 650-513-6111
Facsimile: 650-513-6071
Emails: bobby@tlopc.com
kris@tlopc.com
Robert E. Mangels
Attorneys for Defendant
Matthew D. Hinks
RELIGIOUS
Iman G. Wilson
TECHNOLOGY CENTER
JEFFER MANGELS
BUTLER & MITCHELL LLP
1900 Avenue of the Stars, 7th Floor
Los Angeles, California 90067-4308
Telephone: 310-203-8080
Facsimile: 310-203-0567
Emails: rmangels@jmbm.com
mhinks@jmbm.com
iwilson@jmbm.com

App. 32
Jeffrey K. Rifler
Attorneys for SpeciallyELKINS KALT
Appearing Defendant
WEINTRAUB REUBEN DAVID MISCAVIGE
GARTSIDE LLP
10345 West Olympic Boulevard
Los Angeles, CA 90064
Telephone: 310-746-4400
Facsimile: 310-746-4499
Email: irifferaelkinskalt.com

App. 33
SCHEPER KIM & HARRIS LLP
WILLIAM H. FORMAN (State Bar No. 150477)
wforman@scheperkim.com
DAVID C. SCHEPER (State Bar No. 120174)
dscheper@scheperkim.com
MARGARET E. DAYTON (State Bar No. 274353)
pdayton@scheperkim.com
800 West Sixth Street, 18th Floor
Los Angeles, California 90017-2701
Telephone: (213) 613-4655
Facsimile: (213) 613-4656
Attorneys for Defendant,
Church of Scientology International
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES,
CENTRAL DISTRICT
VALERIE HANEY,
Plaintiff,
v.
CHURCH OF
SCIENTOLOGY
INTERNATIONAL;
RELIGIOUS TECHNOLOGY CENTER, and
DAVID MISCAVIGE;
and DOES 1-25,
Defendants.

CASE NO. 19STCV21210
Assigned to Hon.
Richard J. Burdge, Jr.,
Dept. 37
NOTICE OF RULING
ON PLAINTIFF’S
MOTION FOR
RECONSIDERATION
Date: August 11, 2020
Time: 1:30 p.m.
Complaint Filed:
June 18, 2019

App. 34
TO ALL PARTIES AND THEIR ATTORNEYS
OF RECORD:
PLEASE TAKE NOTICE THAT on August 11,
2020 at 1:30 p.m., Plaintiff Valerie Haney’s Motion for
Reconsideration of the Court’s Order Granting Defendants’ Motion to Compel Arbitration was heard in the
above-entitled court before the Honorable Richard J.
Burdge, Jr. Robert Thompson and Graham Berry appeared on behalf of Plaintiff. William H. Forman and
Margaret E. Dayton appeared on behalf of Defendant
Church of Scientology International. Robert Mangels
and Matthew Hinks appeared on behalf of Defendant
Religious Technology Center.
For the reasons stated in the Court’s August 11,
2020 Minute Order (attached hereto as Exhibit A) and
the reasons stated on the record by the Court, the
Court DENIED Plaintiff ’s Motion for Reconsideration.
DATED: August 12, 2020
SCHEPER KIM & HARRIS LLP
WILLIAM H. FORMAN
DAVID C. SCHEPER
MARGARET E. DAYTON
By /s/ [Illegible]
William H. Forman
Attorneys for Defendant,
Church of Scientology
International

App. 35
EXHIBIT A
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse,
Department 37
19STCV21210
JANE DOE vs CHURCH
OF SCIENTOLOGY
INTERNATIONAL, et al.

August 11, 2020
1:30 PM

Judge: Honorable
Richard J. Burdge Jr.
CSR: None
Judicial Assistant: L. Garcia
ERM: None
Courtroom Assistant: E. Avena Deputy Sheriff: None
APPEARANCES:
For Plaintiff(s): Robert W. Thompson (Telephonic)
Brian Kent and Stewart Ryan; Attorney Graham E.
Berry for Kristen A. Vierhaus (Telephonic) and
Gaetano D’Andrea
For Defendant(s): Attorney Margaret Dayton William
H. Forman (Telephonic); Attorney Robert E. Mangels
Matthew D. Hinks (Telephonic)
NATURE OF PROCEEDINGS: Hearing on Motion
for Reconsideration
Pursuant to Government Code sections 68086, 70044,
and California Rules of Court, rule 2.956, Linda Lee,
CSR # 13568, certified shorthand reporter is appointed
as an official Court reporter pro tempore in these

App. 36
proceedings, and is ordered to comply with the terms
of the Court Reporter Agreement. The Order is signed
and filed this date.
The court’s tentative ruling is posted online for parties
to review.
The matter is called for hearing and argued. After argument, the Court’s tentative ruling is adopted as the
final order of the Court as follows:
Plaintiff ’s motion for reconsideration is DENIED. Defendants are to give notice.
Background
This action arises out of Plaintiff, Valerie Haney
(“Plaintiff ’)’s former tenure as a member of the Church
of Scientology International (“CSI”). Plaintiff also
brings this action against Religious Technology Center
(“RTC”) and David Miscavige (“Miscavige”), who is alleged to be the “Chairman of the Board” and leader of
“The Church of Scientology.” (together, “Defendants.”)
Further, Plaintiff alleges that she served as staff for
the Sea Organization or “Sea Org,” which is one of the
suborganizations of CSI and RTC. The operative First
Amended Complaint (“FAC”) contains extensive allegations regarding the Sea Org’s allegedly improper
and or illegal practices, including allegations detailing
trafficking of children within the Sea Org, how the Sea
Org subjects former members to a “routing out” process, and how the Defendants subject members and

App. 37
former members to other alleged coercion and control
tactics.
As for her own experience, the FAC further alleges that
Plaintiff was born into Scientology in 1979 and was
first a member of the “Cadet Org,” a subdivision of the
Sea Org for the children of Scientology’s most dedicated members. As a “Cadet Org” member, Plaintiff alleges that she was subject to “auditing,” which is an
alleged indoctrination procedure, as well as “bullbaiting,” which is an alleged technique designed to train
children not to react to harassment or other inappropriate comments. Plaintiff alleges that as she grew in
Scientology, she eventually became a victim of human
trafficking such that she was lured into joining the Sea
Org and moving to “Gold Base,” located at 19721 Gilman Spring Road, San Jacinto, California, where she
began being subjected to involuntary servitude in service of the Sea Org. During her time at “Gold Base,”
Plaintiff alleges that she eventually became Miscavige’s “steward.” Due to Plaintiff ’s duties, she alleges
she was increasingly further restricted from leaving
“Gold Base.”
The FAC further alleges that sometime in November
2016, Plaintiff had been assigned to film promotional
videos for Scientology and learned that the promotional videos would be moved off “Gold Base.” As such,
Plaintiff alleges she escaped “Gold Base.” Despite allegedly leaving as of November 2016, the FAC alleges
that Plaintiff was encouraged by her Scientology father to return and appropriately withdraw from Scientology through “routing out.” However, the FAC alleges

App. 38
that returning to Scientology allegedly subjected
Plaintiff to further threats, including being forced to
falsely depict her experience within Scientology. The
FAC alleges that Plaintiff again eventually escaped as
of 2017.
After Plaintiff alleged left Scientology, the FAC alleges
that Defendants continued to subject her to a “Fair
Game campaign.” Specifically, Plaintiff alleges that she
was featured on an episode of a television program in
November 2018 called “Leah Remini: Scientology and
the Aftermath” (the “Aftermath,”), in which she discussed her life prior to leaving Scientology and her ultimate departure. The FAC alleges that in response to
the television appearance, Defendants published a
website against Plaintiff and other persons who featured on the show entitled “leahreminiaftermath.com”
and features allegedly false, defamatory and inflammatory statements about the individuals on the television program.
The operative FAC alleges ten causes of action against
Defendants: (1) intentional misrepresentation, (2) concealment, (3) false promise, (4) false imprisonment, (5)
kidnapping, (6) stalking in violation of California Civil
Code § 1708.7, (7) libel in violation of California Civil
Code § 45, (8) slander in violation of California Civil
Code § 46, (9) constructive invasion of privacy in violation of California Civil Code § 1708.8, (10) intentional
infliction of emotional distress.
On January 30, 2020, the court granted Defendants petitions to compel arbitration. Plaintiff now moves for

App. 39
reconsideration of the court’s January 30, 2020 order.
Defendants oppose the motion.
Evidentiary Objections
The court notes that Defendants have filed numerous
objections to the evidence submitted by Plaintiff, many
of which are meritorious.
However, as discussed below, Plaintiff has failed to
demonstrate that new facts, circumstances or law
within the meaning of section 1008. As such, the failure to establish the predicate for this motion makes
rulings on specific inadmissible evidence unnecessary.
Discussion
Timeliness
Code of Civil Procedure, section 1008 allows a party to
move for reconsideration of an order within 10 days after service upon the party of written notice of entry of
the order, based on new or different facts, circumstances, or law. (Code Civ. Proc., § 1008, subd. (a).)
Here, the court issues its ruling on Defendants’ petitions to compel arbitration on January 30, 2020. On
January 31, 2020, RTC filed a “Notice of Entry of Minute Order” and served it on all parties by mail. On
February 20, 2020, CSI filed a “Notice of Order” and
served it on all parties by mail and electronic service.
Plaintiff ’s motion was filed on March 3, 2020.
Defendants do not contend that Plaintiff ’s motion
should be denied on the grounds that it is untimely.

App. 40
Analysis
Code of Civil Procedure section 1008 requires the party
moving for reconsideration to “state by affidavit what
application was made before, when and to what judge,
what order or decisions were made, and what new or
different facts, circumstances, or law are claimed to be
shown.” However, a party moving for reconsideration
under Code of Civil Procedure section 1008 must
demonstrate that “new or different facts” in support of
the motion could not have been discovered or produced
with “reasonable diligence” at the time of the original
hearing. (New York Times Co. v. Superior Court (2005)
135 Cal.App.4th 206, 212-13 (“the information must be
such that the moving party could not, with reasonable
diligence, have discovered or produced it at the [original hearing]”).
Plaintiff argues that reconsideration of the court’s January 30, 2020 ruling is warranted based on new facts
contained in Defendant’s Special Motion to Strike
(“Anti-SLAPP Motion”), filed on January 22, 2020 after
she filed her opposition to Defendants’ petitions to
compel arbitration. (Motion, 1-3.) Specifically, Plaintiff
points to the Declaration of Lynn Farny (“Farny”) to
demonstrate that she was terminated before signing
the Staff Departure Agreement, such that the Staff Departure Agreement and its arbitration provision
should be considered a “nullity” because Plaintiff did
not voluntarily execute it. (Id.) Plaintiff argues that
the Farny Declaration demonstrates that she was declared a “Suppressive Person” approximately a week

App. 41
before she signed the Staff Departure Agreement during a February 6, 2017 “Fitness Board Turndown.” (Id.)
In opposition, Defendants contend that the January
30, 2020 ruling should not be reconsidered because the
Farny Declaration in support of Defendant’s AntiSLAPP Motion does not constitute a new fact for purposes of Code of Civil Procedure section 1008. (Opposition, 8-10.) Defendants contend that this is the case
because Plaintiff ’s counsel made arguments demonstrating that he was aware of the Farny Declaration at
the January 30, 2020 hearing and was aware of the fact
that Plaintiff had been deemed a “Suppressive Person”
before signing the Staff Departure Agreement. (Id.;
Declaration of William Forman (“Forman”), Exhibit A
at pp. 3:12-4:8.)
The court has reviewed Exhibit A to the Forman Declaration and agrees with Defendants. Exhibit A
demonstrates that Plaintiff ’s counsel knew as of the
hearing that Plaintiff had been declared a “Suppressive Person” by CSI. As such, this fact does not constitute “new or different facts, circumstances, or law” and
the court will not reconsider its January 30, 2020 ruling. Nowhere in the showing is there any statement by
Plaintiff under oath that she was unaware of the “new”
facts or how to obtain them.
Finally, the court notes that Plaintiff also argues for a
reconsideration of the January 30, 2020 ruling regarding her ex parte application for an order permitting her
to conduct discovery based on the alleged new facts
contained in the Farny Declaration. (Motion, 5, 14-15.)

App. 42
However, Plaintiff ’s request is denied. As discussed
above, the Farny Declaration does not constitute new
facts or circumstances as Plaintiff ’s counsel argument
at the January 30, 2020 hearing demonstrates that he
knew of the Farny Declaration.
For these reasons, Plaintiff ’s motion is DENIED. Having denied Plaintiff ’s motion on this basis, the court
does not reach the remainder of the parties’ arguments.
Conclusion
Plaintiffs motion for reconsideration is DENIED. Defendants are to give notice.

PROOF OF SERVICE
Jane Doe (Valerie Haney) v. Church of Scientology, et al. LASC Case No. 19STCV21210
STATE OF CALIFORNIA, COUNTY OF LOS ANGELES
At the time of service, I was over 18 years of age
and not a party to this action. I am employed in the
County of Los Angeles, State of California. My business address is 800 West Sixth Street, 18th Floor, Los
Angeles, CA 90017-2701.

App. 43
On August 13, 2020, I served true copies of the
following document(s) described as NOTICE OF
RULING ON PLAINTIFF’S MOTION FOR RECONSIDERATION on the interested parties in this
action as follows:
SEE ATTACHED SERVICE LIST
BY ELECTRONIC SERVICE: I served the document(s) on the person listed in the Service List by
submitting an electronic version of the document(s)
to One Legal, LLC, through the user interface at
www.onelegal.com.
BY E-MAIL OR ELECTRONIC TRANSMISSION: I caused a copy of the document(s) to be sent
from e-mail address cspears@scheperkim.com to the
persons at the e-mail addresses listed in the Service
List. I did not receive, within a reasonable time after
the transmission, any electronic message or other indication that the transmission was unsuccessful.
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct.

App. 44
Executed on August 13, 2020, at Los Angeles, California.
/s/ Connie Spears
Connie Spears

SERVICE LIST
Jane Doe (Valerie Haney) v. Church
of Scientology, et al.
LASC Case No. 19STCV21210
Robert W. Thompson
Attorneys for Plaintiff
Kristen A. Vierhaus
VALERIE HANEY
THOMPSON LAW OFFICES
700 Airport Boulevard, Suite 160
Burlingame, CA 94010
Telephone: 650-513-6111
Facsimile: 650-513-6071
Emails: bobby@tlopc.com
kris@tlopc.com
Graham E. Berry
Law Office of Graham E. Berry
3384 McLaughlin Ave.
Los Angeles, CA 90066-2005
Telephone: 310-745-3771
Facsimile: 310-745-3771
Email: grahamberryesq@gmail.com

App. 45
Robert E. Mangels
Attorneys for Defendant
Matthew D. Hinks
RELIGIOUS
Iman G. Wilson
TECHNOLOGY
JEFFER MANGELS
CENTER
BUTLER & MITCHELL LLP
1900 Avenue of the Stars, 7th Floor
Los Angeles, California 90067-4308
Telephone: 310-203-8080
Facsimile: 310-203-0567
Emails: rmangels@jmbm.com
mhinks@jmbm.com
iwilson@jmbm.com
Jeffrey K. Riffer
Attorneys for SpeciallyELKINS KALT
Appearing Defendant
WEINTRAUB REUBEN
DAVID MISCAVIGE
GARTSIDE LLP
10345 West Olympic Boulevard
Los Angeles, CA 90064
Telephone: 310-746-4400
Facsimile: 310-746-4499
Email: iriffer@elkinskalt.com

App. 46
Court of Appeal, Second Appellate District,
Division Five – No. B307452
S265314
IN THE SUPREME COURT OF CALIFORNIA
En Banc
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

VALERIE HANEY, Petitioner,
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondent;
CHURCH OF SCIENTOLOGY INTERNATIONAL
et al., Real Parties in Interest.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Dec. 9, 2020)
The petition for review is denied.
CANTIL-SAKAVE
Chief Justice

